                                                            2 0 0 2

S e m i a n n u a l   R e p o r t


Office of the Inspector General




                       April 1, 2002 – September 30, 2002
Tennessee Valley Auth ority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401




G. Donald Hickman
Inspector General (Acting)


October 31, 2002




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

I am pleased to submit this semiannual report on the accomplishments of the OIG for the six-month period
ending September 30, 2002.

I am honored to continue serving as the Acting Inspector General. During this reporting period, our efforts
ranged from increasing our role in financial-related matters and security reviews to conducting contract audits
and integrity investigations. Our products, as summarized throughout this report, have been well received and
have contributed in many ways toward helping TVA achieve its goals.

As part of our ongoing efforts to focus on our core missions in these times of uncertainty, we have adopted an
OIG seal, as reflected on the front cover. That seal incorporates three themes––the United States, TVA, and the
OIG. We can best serve both the United States and TVA by concentrating on the role given us by Congress, as
reflected in that seal––to promote economy, efficiency, and effectiveness.

To better carry out this role, we measure and reward productivity, timeliness, and results. Our efforts in these
areas during this past year resulted in significant internal OIG improvements, and I intend to continue
emphasizing these three areas as we move forward to face the challenges of the new year.

I am extremely pleased by the support I have received as Acting Inspector General from Congress, OIG
employees, the TVA Board, and our other stakeholders. I look forward to further serving these constituencies.

Sincerely,




G. Donald Hickman
Executive Summary                                                                                    1

TVA Profile                                                                                          2

Office of the Inspector General                                                                      3

Special Features                                                                                     6

Audits                                                                                               8

Nonaudit Services                                                                                   13

Investigations                                                                                      14

Legislation and Regulations                                                                         19




Appendices                                                                                          20

Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          21

Appendix 2 Audit Reports Issued                                                                     22

Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   25

Appendix 4 Investigative Referrals and Prosecutive Results                                          27

Appendix 5 Audit Reports With Corrective Actions Pending                                            28




Highlights                                                                                          29




                                                               SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
         During this reporting period, we contin-      (3) information technology reviews, and
         ued our efforts to support TVA through        (4) performance reviews of TVA opera-
         quality audits, investigations, and other     tions. Corrective actions in response to
         projects.                                     our audits included monetary recoveries,
                                                       process improvements, and security
         We believe our efforts helped TVA man-
                                                       enhancements. Nonaudit engagements
         agement avoid unnecessary costs,
                                                       were conducted primarily in support of
         recover funds, and correct identified
                                                       procurement activities and in response to
         weaknesses. Also, in many instances,
                                                       requests from TVA management.
         our efforts helped confirm that many pro-
         grams were working effectively. In total,     We closed 89 investigations, including
         we identified over $56.9 million in recov-    multi-agency task force projects, which
         eries, fines/penalties, potential savings,    led to over $1.05 million in recoveries,
         questioned costs, or funds which could        projected savings, and fines/penalties;
         be put to better use. A large portion of      administrative or disciplinary action
         these funds resulted from our preaward        against 7 individuals; and other correc-
         audits, where we identified potential sav-    tive action (counseling and management
         ings for management to use in negotiat-       techniques) in 24 cases. Matters we
         ing contracts.                                investigated included contract compli-
                                                       ance, health care fraud, environmental
         We completed 40 audits and 16 nonau-
                                                       crimes, and employee misconduct.
         dit service engagements during this
                                                       These investigations led to the indictment
         reporting period. These reviews included
                                                       of nine and the conviction of four individ-
         (1) preaward and postaward contract
                                                       uals or entities.
         audits, (2) other financial-related audits,




TVA / OFFICE OF THE INSPECTOR GENERAL                  1
                                                 system where each dam operates in
                                                 relationship to the others for multiple pur-
                                                 poses and public benefits. These
                                                 include navigation, flood control, power
                                                 supply, land use, water quality, and
                                                 recreation.


TVA is a federal corporation established         TVA contributes to the Valley economy,
in 1933 to provide flood control, naviga-        chiefly by keeping power rates competi-
tion, and electric power in the Tennessee        tive, which helps attract and retain indus-
Valley region. Today, TVA is the nation’s        tries that provide quality jobs in the
largest public power company and a               region. TVA also helps communities pro-
regional development agency that sup-            mote sustainable economic development
plies low-cost reliable power, supports a        by providing assistance in job creation
thriving river system, and stimulates sus-       and retention and productivity improve-
tainable economic development in a               ments via capital investment, support of
service area that covers 80,000 square           business incubators, specialized techni-
miles in the Southeastern United States,         cal services and advice, and recruitment
including almost all of Tennessee and            for new and existing industries.
parts of Mississippi, Kentucky, Alabama,
                                                 The TVA power system pays its own way
Georgia, North Carolina, and Virginia.
                                                 by selling electricity and issuing bonds.
TVA generates power at 11 coal-burning           The system does not use tax dollars. In
plants, 3 nuclear plants, 29 hydroelectric       addition, TVA no longer receives con-
dams, 1 pumped storage plant, and                gressional appropriations to help fund its
5 gas/fuel oil combustion turbine sites.         activities in navigation, flood control,
TVA also produces energy from three              environmental research, and land man-
renewable sources––sun, wind, and                agement. These programs are now
methane gas from waste. TVA provides             funded by power revenues.
electric power to 158 local power distrib-
                                                 TVA is governed by a three-member
utors, 54 large industries, and 8 federal
                                                 Board of Directors appointed by the
agencies through a network of
                                                 President and confirmed by the Senate.
17,000 miles of transmission lines. TVA
                                                 Glenn L. McCullough, Jr., is Chairman,
also sells power to 12 surrounding utili-
                                                 and Skila Harris and Bill Baxter are
ties on the interchange market.
                                                 Directors.
TVA manages the nation’s fifth largest
river system. TVA dams are part of a
totally integrated resource management




                                             2   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
            Office Authority                                  Organization

            TVA’s OIG was created by the TVA Board            The OIG consists of two major opera-
            of Directors in October 1985. It became           tional units––Audits and Investigations.
            statutory under the Inspector General
                                                              OIG Audits consists of four departments.
            Act Amendments of 1988. Those
                                                              One is devoted to contract-related
            amendments established OIGs at TVA
                                                              audits, both preaward and postaward
            and 32 other agencies with Inspectors
                                                              reviews. The other three focus, respec-
            General appointed by the agency heads.
                                                              tively, on (1) performance, (2) financial,
            The authority to appoint the TVA
                                                              and (3) ADP-related issues.
            Inspector General was transferred to the
            President in November 2000 by Public
                                                              OIG Investigations consists of three
            Law 106–422.
                                                              departments. One focuses on identifying
                                                              and investigating potential misconduct
            The Inspector General is responsible for
                                                              and integrity issues. The others focus,
            conducting audits and investigations
                                                              respectively, on (1) contract fraud and
            relating to TVA programs and operations,
                                                              misfeasance and (2) improper use of TVA
            while keeping the TVA Board and
                                                              computers and health care fraud.
            Congress fully and currently informed
            about problems and deficiencies relating
            to the administration of TVA’s programs
            and operations. TVA’s Inspector General
            is independent and subject only to the
            general supervision of the TVA Board of
            Directors. The Inspector General’s
            authority includes conducting any audits
            or investigations the Inspector General
            deems necessary or desirable, issuing
            subpoenas, administering oaths, and
            granting confidentiality to individuals who
            provide information to the OIG.




TVA / OFFICE OF THE INSPECTOR GENERAL                     3
Strategic Plan                                     scoping, planning, and initial analysis
                                                   during both audit and investigative
We continued our efforts to meet our five          projects.
strategic objectives: (1) cultivating and
                                                   In fiscal year 2002, we measured our
retaining a highly skilled, innovative, and
                                                   performance against goals set for three
motivated workforce; (2) enhancing com-
                                                   separate weighted measures rather than
munications with stakeholders and deliv-
                                                   on the number of projects completed,
ering services that meet their needs;
                                                   the only measure used in prior years.
(3) leveraging OIG resources to optimize
                                                   These measures––productivity, timeli-
productivity and results; (4) focusing on
                                                   ness, and results––were selected to
areas of high risk to TVA; and (5) envi-
                                                   encourage better planning, to minimize
sioning change affecting TVA and identi-
                                                   time spent on unproductive projects, and
fying effective solutions. We have
                                                   to improve timeliness and resource uti-
concentrated during this period on the
                                                   lization. While our most substantial
areas of improving stakeholder relations,
                                                   accomplishment was a significant reduc-
developing our staff, and focusing our
                                                   tion in the average cycle time of audits
resources on areas that contribute to
                                                   and investigations, we also met goals for
TVA’s success.
                                                   productivity and results.
Activities that contributed to accomplish-
ments in these strategic areas included
                                                   Staffing and Budget
(1) regularly apprising the TVA Board of
                                                   The OIG’s offices are in the TVA head-
Directors of significant audit and inves-
                                                   quarters in Knoxville, Tennessee. The
tigative results, (2) frequent meetings with
                                                   OIG also has a satellite office in
TVA managers to discuss OIG plans and
                                                   Chattanooga, Tennessee.
results and to solicit feedback, (3) devel-
oping a more formal training program for           The OIG’s fiscal year 2002 budget was
our special agents, (4) continuing devel-          $8 million with a budgeted headcount of
opmental training of our Level I auditors          90 employees.
as well as offering our more senior audi-
tors opportunities to maintain existing
skills and develop new ones, (5) imple-
menting improvements in our investiga-
tive process that enabled us to
significantly reduce cycle time, (6) allow-
ing management to handle minor
employee misconduct issues with some
OIG oversight, and (7) emphasizing




                                               4      SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
                                                                          Inspector General




                                                  Assistant Inspector               Human Resource                  Assistant Inspector
                  Legal Counsel
                                                   General (Audits)                    Manager                     General (Investigations)


                                                             Contract Audits                                               Financial Investigations
                        Deputy Assistant
                       Inspector General
                      (Audit and Support)                    Financial Audits
                                                                                                                           Information Technology
                                                                                                                           Investigations
                                                             Information Technology
                                                             Audits
                                                                                                                           Internal Investigations
                                                             Operational Audits




                                                                Contacts

            Inspector General (Acting)                                          Contract Audits Manager
            G. Donald Hickman . . . . . . . . . .(865) 632-4120                 David P. Wheeler . . . . . . . . . . . .(865) 632-3437

            Legal Counsel                                                       Financial Audits Manager
            Richard P. Levi . . . . . . . . . . . . . .(865) 632-6197           Jill M. Matthews . . . . . . . . . . . . .(865) 632-2272

            Assistant Inspector General (Audits)                                Information Technology Audits Manager
            Ben R. Wagner . . . . . . . . . . . . . .(865) 632-6309             Deborah M. Thornton . . . . . . . . .(865) 632-6184

            Human Resource Manager                                              Operational Audits Manager
            Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718          Paul E. Ivie . . . . . . . . . . . . . . . . .(865) 632-2272

            Assistant Inspector General (Investigations)                        Financial Investigations Manager
            G. Donald Hickman . . . . . . . . . .(865) 632-7720                 Ron W. Taylor . . . . . . . . . . . . . . .(865) 632-3979

            Deputy Assistant Inspector General (Audit                           Information Technology Investigations
            and Support)                                                        Manager
            Lewis M. Ogles . . . . . . . . . . . . . .(865) 632-6180            Curtis Phillips . . . . . . . . . . . . . . .(865) 632-2584

            OIG Media Relations                                                 Internal Investigations Manager
            Anne B. Ferrell . . . . . . . . . . . . . .(865) 632-3505           C. Dale Hamilton . . . . . . . . . . . .(865) 632-3956




                               Hotline to report fraud, waste, and abuse: 1-800-323-3835
                                             OIG website: http://oig.tva.gov




TVA / OFFICE OF THE INSPECTOR GENERAL                                           5
OIG Provides Financial                              Our role in ensuring the integrity of TVA's

Reporting Oversight                                 financial reporting process is not limited
                                                    to the annual audit. In addition, we:

Over the past year, issues surrounding
                                                    n Perform reviews of TVA's systems of
corporate responsibility, financial report-
                                                       internal control, financial reporting
ing practices, and auditor independence
                                                       practices, and key computer systems
have been thrust into the spotlight. TVA,
                                                       supporting TVA's financial reporting
like other companies, is facing increased
                                                       process and provide recommenda-
scrutiny of its financial reporting practices
                                                       tions for improvement.
from the public, investors, and Congress.
As TVA's OIG, we are committed to con-              n Keep the Board of Directors and
tinuing and enhancing our role in ensur-               Congress apprised of our significant
ing that TVA's financial reporting                     findings through our semiannual
practices promote the highest level of                 reports and other communications.
financial integrity and accountability to
TVA stakeholders.                                   n Perform investigations pertaining to
                                                       alleged financial and/or accounting
Inspectors General have been given the                 irregularities and violations of ethical
responsibility for assuring work per-                  standards by TVA managers and
formed by non-federal auditors complies                employees.
with Government Auditing Standards. To
meet this responsibility, we perform a              n Provide employees with a hotline for
concurrent review of the external audi-                anonymous reporting of financial
tor's annual audit of TVA's financial                  and/or accounting irregularities.
statements. As a part of this review, we
                                                    The past year has seen new auditor
participate in key meetings with the
                                                    independence standards and legislation
external auditor and TVA management,
                                                    enacted that are designed to enhance
review the external auditor's workpapers,
                                                    corporate accountability. TVA, although
review the independence of the auditor,
                                                    not subject to recent legislation, is taking
and perform supplemental tests, as
                                                    steps to enhance its financial reporting
needed, to assess the overall quality of
                                                    practices. We fully support TVA's efforts
the audit. In fiscal year 2003, in addition
                                                    and will continue to conduct audits and
to the concurrent review, we will provide
                                                    investigations and make recommenda-
technical contract management and
                                                    tions, as warranted, to improve these
funding for the external audit contract to
                                                    practices.
assure the independence of the external
auditor both in fact and appearance.




                                                6      SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
               President’s Council on                                         hedging, mark-to-market, and value at

               Integrity and Efficiency                                       risk. During the review, they interviewed
                                                                              numerous bulk power trading and risk
               (PCIE) Award
                                                                              management personnel to gain an

               Each year, the PCIE and the Executive                          understanding of TVA’s long-term trading

               Council on Integrity and Efficiency pres-                      philosophy and process, identified and

               ent awards for outstanding achievements                        compared industry best practice controls

               within the Inspector General community                         to TVA’s long-term trading process, and

               in promoting economy and efficiency in                         tested controls.

               preventing and fighting fraud, waste, and
                                                                              The team determined TVA’s long-term
               abuse in federal operations. Effective
                                                                              bulk power trading process was operat-
               October 1, 2001, the TVA OIG became a
                                                                              ing in an effective control environment
               member of the PCIE.

               An OIG audit team was awarded a 2002
               Award of Excellence by the PCIE for their
               work in the area of TVA Long-Term Bulk
               Power Trading. The team (pictured to
               the right) produced two highly complex
               reviews of TVA's weekly, monthly, sea-
               sonal, annual, and multi-year trading in
                                                              The team (left to right): Louise Beck, Rick Taylor, Paul Ivie, Melissa
               the wholesale electricity market.              Neusel, Sharon Bates, and Patsy Foster (Cheryl Liles not pictured).


               The reviews were especially timely, as                         because (1) TVA's trading philosophy
               several power marketers have either filed                      inherently reduces its trading risk, (2) it
               for or are on the brink of bankruptcy and                      had implemented 33 of the 35 industry
               other utilities have faced scrutiny due to                     best practice controls that the team
               questionable energy trading and                                identified, and (3) the controls the team
               accounting practices. The reviews also                         tested worked effectively. However, the
               were significant because TVA’s gross                           team identified opportunities for improve-
               long-term bulk power sales and purchas-                        ment in the areas of documenting the
               es exceeded $300 million in fiscal year                        overall trading policy, implementing a
               2001.                                                          code of conduct applicable to individuals
                                                                              executing trades, and segregating the
               By taking coursework, performing exten-
                                                                              receipt of trade confirmations from the
               sive research, and consulting an industry
                                                                              trade execution function. Management
               expert, the OIG auditors became knowl-
                                                                              agreed and took appropriate corrective
               edgeable about important issues such as
                                                                              action.
               forward prices and volatility, option valua-
               tion, price risk book, hedging, delta



TVA / OFFICE OF THE INSPECTOR GENERAL                                7
Summary of                                        n Three competing companies submit-

Representative Audits                                ted proposals to provide engineering
                                                     support services for the recovery of
Audits are initiated from (1) the OIG                Browns Ferry Unit 1. In assessing
annual workplan, (2) additional issues               whether the proposed labor costs
identified by the OIG subsequent to the              were fairly stated, we identified vari-
annual workplan, (3) issues identified by            ous opportunities for TVA manage-
cooperative efforts with TVA manage-                 ment to negotiate savings involving a
ment, and (4) concerns raised by TVA                 five-year, $240 million project. TVA
management or other stakeholders.                    management subsequently negotiat-
During this reporting period, we complet-            ed nearly $7 million in reduced labor
ed 40 audits which identified over                   burdens and favorable contract terms
$3.8 million in questioned costs and over            with the company it decided to
$52 million in funds which could be put              select.
to better use (includes $30.9 million for
                                                  n We reviewed the indirect cost rates
proposals that were not awarded). We
                                                     TVA is paying two contractors for
also identified numerous opportunities for
                                                     engineering and design services and
TVA to improve program operations. Our
                                                     determined TVA could save nearly
audits included (1) preaward and
                                                     $4 million over the next two years by
postaward contract audits, (2) other
                                                     lowering the rates to (1) reflect histori-
financial-related audits, (3) information
                                                     cal costs for one company and
technology reviews, and (4) operational
                                                     (2) eliminate excessive performance
audits.
                                                     bonuses and account for the effect of
PREAWARD CONTRACT AUDITS                             the planned expenditure level on the

To support TVA management in negotiat-               other company's rates. Negotiations

ing procurement actions, we conducted                with these contractors are ongoing.

13 preaward audits. During this report-
                                                  n We reviewed a contractor's proposed
ing period, TVA management success-
                                                     billing rates and fees for a $50 million,
fully negotiated $7.7 million in savings as
                                                     five-year contract to provide boiler
a result of audits issued during this and
                                                     parts and services. We determined
previous reporting periods and is contin-
                                                     the proposed rates and fees were
uing to negotiate other potential con-
                                                     fairly stated except for the inclusion of
tracts audited during this period.
                                                     over $200,000 in unallowable costs.
Highlights of the more significant
                                                     TVA management negotiated reduc-
preaward audits follow.
                                                     tions in the contractor's gross mar-
                                                     gins to eliminate the unallowable
                                                     costs.




                                              8     SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
               n We reviewed the costs and pricing                 (1) billing rates exceeding the con-
                  methodology proposed by a contrac-               tract price list, (2) using excessive
                  tor for providing services and equip-            markup rates for items not on the
                  ment for TVA's hydro modernization               contract price list, and (3) double
                  program under a potential $350 mil-              billing for one service. TVA manage-
                  lion contract. We suggested TVA                  ment is seeking recovery of the ques-
                  (1) eliminate interest costs from the            tioned costs.
                  proposed sales, general, and admin-
                                                                n We found that a contractor (1) over-
                  istrative rate; and (2) negotiate con-
                                                                   billed TVA about $15,000 in adminis-
                  sistently applied profit rates.
                                                                   trative fees and (2) neglected to file
                  Negotiations for this contract award
                                                                   tax exemption requests for commer-
                  are ongoing.
                                                                   cial fuel purchases in several TVA
               CONTRACT COMPLIANCE                                 region states. The contractor subse-
               During this reporting period, we complet-           quently reimbursed TVA for the over-
               ed 12 contract compliance audits that               billings and agreed to apply for future
               identified about $969,000 in ineligible             tax exemptions with each state.
               and unsupported costs. Management
                                                                n We determined that a contractor's
               generally agreed with our findings and
                                                                   markup rate for a subcontract agree-
               has taken or plans to take appropriate
                                                                   ment was overstated due to a misap-
               corrective action. Highlights of some of
                                                                   plication of the profit rate. The
               the more significant audits follow.
                                                                   subcontractor subsequently reim-
               n We determined that a contractor                   bursed TVA $53,000 and corrected
                  (1) provisionally billed about $187,000          the profit application.
                  over actual costs for payroll taxes,
                                                                n We found that a contractor that pro-
                  fringe benefits, and paid time off; and
                                                                   vided software, maintenance, and
                  (2) overbilled about $12,000 in labor
                                                                   implementation services overbilled
                  costs due to miscellaneous billing
                                                                   TVA about $70,000 by (1) using labor
                  errors. We also found TVA incorrectly
                                                                   rates not included in the contract,
                  paid a $2,310 credit invoice, resulting
                                                                   (2) miscalculating billable days,
                  in an overpayment of $4,620. The
                                                                   (3) incurring ineligible and unsupport-
                  contractor subsequently issued cred-
                                                                   ed travel expenses, and (4) submit-
                  its to TVA for these amounts.
                                                                   ting duplicate billings for training
               n We determined a contractor that pro-              costs. TVA management plans to
                  vided computer-related services and              recover the overbillings.
                  materials overbilled TVA a projected
                  amount exceeding $300,000 by




TVA / OFFICE OF THE INSPECTOR GENERAL                       9
n We identified over $65,000 in over-              n Protection of computer equipment
   billings and unsupported costs involv-             used to remotely operate hydroelec-
   ing a contractor that provided                     tric plants from environmental haz-
   computer-related training, software,               ards such as water leaks.
   and services. TVA management
                                                   n Contingency planning requirements
   recovered the questioned costs.
                                                      that ensure continuity of operations in
n We determined that a research con-                  the event of a disaster or system
   tractor overbilled TVA over $30,000                failure.
   and co-mingled TVA project costs
                                                   n IT purchasing procedures.
   with non-TVA project costs, thereby
   negating our ability to audit costs
                                                   n TVA’s IT security program and
   associated with a TVA project. The
                                                      practices.
   contractor agreed to give TVA a
   credit for the overbilling and is taking        TVA management agreed with our find-
   steps to correct the recordkeeping              ings and is taking appropriate corrective
   issue.                                          action.

INFORMATION TECHNOLOGY (IT)                        HIGHLAND RIDGE TOWER

During this reporting period, we complet-          At the request of TVA management, we
ed audits in the IT environment pertaining         reviewed the reasonableness of TVA's
to software operating systems, an                  estimate that it would save $4.8 million
internet-based system, a remote                    over a five-year period by subleasing the
automation process, and various IT pro-            Highland Ridge Tower to Bridgestone/
cedures. We also reviewed compliance               Firestone Americas Holding, Inc., and
of TVA’s IT security program with the              leasing other office space in Nashville to
Government Infor-mation Security                   accommodate TVA employees. We con-
Reform Act. We found improvements                  cluded TVA’s estimate of savings was
were needed to address weaknesses                  reasonable provided (1) TVA's current
pertaining to:                                     plan for leasing 55,962 rentable square
                                                   feet is sufficient to meet its future office
n Software change control processes
                                                   needs in Nashville and (2) TVA does not
   designed to ensure that only author-
                                                   incur additional costs due to no longer
   ized software changes are made.
                                                   having an exercise facility and space
                                                   capable of accommodating large confer-
n Physical and logical security access
                                                   ences and meetings.
   controls designed to prevent unau-
   thorized access to computer equip-
   ment, software, and data.




                                              10      SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
               CONTROL OVER TVA FIREARMS                         2001. We reviewed these arrangements

               We assessed whether TVA had adequate              and determined TVA (1) developed and

               controls over its firearms. Although we           consistently applied reasonable criteria in

               did not identify any discrepancies in             the lease/leaseback agreements,

               TVA’s inventory listings, we concluded            (2) recorded both leasing transactions in

               TVA could improve its processes for con-          accordance with generally accepted

               trolling and maintaining accountability           accounting principles (GAAP), and

               over firearms by (1) better documenting           (3) reported the fiscal year 2000 leasing

               the results of periodic inventories and           transaction in its financial statements as

               (2) recording all acquisition and disposi-        required by GAAP, except for not dis-

               tion information. We also found that TVA          closing leaseback terms and the obliga-

               had not developed a comprehensive pol-            tion for future minimum lease payments

               icy addressing the disposal of surplus            for each of the five succeeding years.

               firearms. TVA management is taking                TVA management agreed to include the

               appropriate corrective action.                    additional information in the notes to its
                                                                 fiscal year 2002 financial statements.
               WILLINGNESS TO REPORT NUCLEAR
               QUALITY AND SAFETY ISSUES                         SAFETY PROGRAM

               We assessed the willingness of TVA                The Occupational Safety and Health Act
               Information Services (IS) employees who           of 1970 requires the head of each federal
               directly support TVA's nuclear activities         agency to establish and maintain an
               to raise quality and safety issues. We            effective and comprehensive occupation-
               compared these results to prior surveys           al safety and health program consistent
               of TVA nuclear employees. Our survey              with standards promulgated under the
               results showed these IS employees were            Act. We reviewed TVA's Safety Program
               as willing as TVA nuclear employees to            and found the program generally com-
               raise nuclear safety and quality issues.          plied with the requirements of the Act.
               However, they were less willing to raise          We also determined TVA line organiza-
               unpopular views on non-nuclear safety             tions complied with the safety program
               and quality issues. TVA management                requirements, except for certain aspects
               agreed to improve communications and              of (1) safety training, (2) workplace
               address employee perceptions.                     inspections, (3) injury/illness investigation
                                                                 reports, and (4) certified safety commit-
               SPECIAL FINANCING
                                                                 tees. TVA management agreed with our
               ARRANGEMENTS
                                                                 findings and is taking appropriate correc-
               TVA used special financing arrangements           tive action.
               in the form of lease/leaseback agree-
               ments to finance 16 combustion turbine
               generating units in fiscal years 2000 and




TVA / OFFICE OF THE INSPECTOR GENERAL                       11
CAPITAL PROJECT JUSTIFICATION                       MEDICAL PLAN ELIGIBILITY
PROCESS
                                                    TVA provides medical coverage to its
TVA spent over $950 million on capital              active employees through contracts with
projects in fiscal year 2001 and expected           four medical plan providers. We
to spend over $1.2 billion in fiscal year           assessed the adequacy of TVA’s eligibility
2002. We assessed whether TVA's                     controls and identified nearly $30,000 in
revised project justification process incor-        ineligible benefits paid on behalf of 16 of
porated leading practices in capital deci-          991 participants we sampled from the
sion-making as described in the General             active employee medical plan. We con-
Accounting Office's (GAO) Executive                 cluded TVA’s eligibility-related processing
Guide: Leading Practices in Capital                 controls should be strengthened, espe-
Decision-Making. We determined the                  cially those associated with non-spouse
revised process, either as designed or in           dependents ages 19 through 24. TVA
practice, included the leading practices            management agreed to (1) pursue recov-
as described by GAO. Nonetheless, we                ery of the identified ineligible payments
determined that opportunities exist for             and (2) strengthen controls related to the
improving the process in the areas of               students.
cost estimating, project monitoring, and
post completion evaluations. TVA man-
agement generally agreed and is taking
appropriate corrective action.




                                               12      SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
            Summary of Nonaudit                               processes used by other utilities. TVA

            Services                                          management generally agreed with our
                                                              suggestions and is taking corrective

            We provide nonaudit services upon                 action.

            request to assist TVA management in
                                                              STAFF AUGMENTATION
            improving the efficiency and effectiveness
                                                              We reviewed the use of staff augmenta-
            of its operations. In addition, when
                                                              tion contractors in TVA's Chief Operating
            requested, we provide information, data,
                                                              Officer and Administration organizations,
            and analyses to members of Congress to
                                                              with an emphasis on two or more years
            help keep them informed about aspects
                                                              of continuous service. Based on avail-
            of TVA’s operations. Depending upon
                                                              able information, we concluded the num-
            the objective, these reviews are per-
                                                              ber of staff augmentation contractor
            formed in accordance with either the
                                                              employees with 2 or more years’ service
            (1) American Institute of Certified Public
                                                              was about 46 percent higher than had
            Accountant’s standards for Consulting
                                                              previously been reported to upper man-
            Services or (2) PCIE’s Quality Standards
                                                              agement. This was due primarily to TVA
            for Inspections.
                                                              organizations (1) misclassifying staff aug-
            During this reporting period, we complet-         mentation as managed task support and
            ed 16 nonaudit service engagements                (2) inaccurately reflecting service dates.
            requested by TVA management, primarily            TVA management subsequently central-
            in support of procurement activities.             ized the administration of staff augmen-
            Highlights of representative nonaudit             tation contracts and is considering the
            services follow.                                  development of a reporting and tracking
                                                              database.
            COAL PROCUREMENT PROCESS
                                                              REVIEW OF REQUESTS FOR
            TVA purchases over 46 million tons of
                                                              PROPOSALS
            coal annually at a cost of about $1.3 bil-
            lion. We reviewed TVA's coal procure-             We provided informal advice on six

            ment process and identified oppor-                requests for proposals involving security

            tunities for process improvements in the          services, administration of flexible spend-

            areas of organizational goals, communi-           ing accounts, communication services,

            cation, documentation, segregation of             voluntary benefits, design and installation

            duties, information systems, contract             of scrubbers, and a potential leverage

            management, oversight of weighing and             contract for electrical parts.

            sampling, and working relationships. We
            also provided information comparing
            TVA's fuel procurement process to the




TVA / OFFICE OF THE INSPECTOR GENERAL                    13
Summary of                                          SENTENCING––FALSE
                                                    DOCUMENTATION TO HIDE THEFT
Representative                                      AND RESALE OF TVA TOOLS
Investigations
                                                    This investigation was initiated based on

During the last six months, we closed 89            allegations the subject received stolen

investigations, including allegations and           TVA tools and subsequently sold a por-
                                                    tion of them back to TVA. Our inquiry
concerns received from ratepayers, TVA
managers and employees, governmental                substantiated the allegations.

and congressional staffs, and OIG audi-
                                                    During a previous reporting period, the
tors. Our investigations, including task
                                                    subject, a Knoxville, Tennessee, busi-
force projects, resulted in (1) $1,056,127
                                                    nessman, pled guilty in federal court to
in recoveries, projected savings, and
                                                    two counts of making and causing to be
fines/penalties, (2) nine individuals or
                                                    made false documents that he presented
entities indicted, and (3) four individuals
                                                    to the OIG in an effort to show the stolen
convicted. Representative investigations
                                                    tools, valued at nearly $70,000, were
are highlighted below.
                                                    legitimately acquired from a third party.
COAL OVERBILLING
                                                    During this reporting period, the subject
We determined an Indiana coal vendor                was sentenced to pay a $5,000 fine and
billed TVA for delivered coal on estimated          to serve 2 years' probation, including
weights, not certified weights as speci-            6 months' home detention and
fied by its contract with TVA. We esti-             100 hours' community service.
mated the invoiced weight overstated the
value of the vendor's delivered coal by             HIRING ISSUES
more than $1 million.                               Nepotism

                                                    We investigated an allegation of nepo-
As a result of our findings, the company
                                                    tism in hiring a group of trainees at a TVA
agreed to (1) pay TVA over $650,000 for
                                                    nuclear plant. Our inquiry confirmed rel-
the overstated weight and (2) conduct a
                                                    atives of TVA employees on the selection
daily random weight check on each truck
                                                    panel were hired. While the employees
delivering coal until certified in- and out-
                                                    on the panel recused themselves from
bound truck scales can be built by the
                                                    consideration of their relatives, we con-
vendor.
                                                    cluded they should not have served in
                                                    the selection process in any capacity.

                                                    TVA management agreed to take steps
                                                    to assure TVA employees do not partici-
                                                    pate on selection panels when they have




                                               14   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
            relatives applying for the position(s) and          spondence without their knowledge or
            stated it will provide training, including          consent.
            developing checklists for managers and
                                                                Based on our investigation, TVA termi-
            Human Resource consultants, on nepo-
                                                                nated the individual's employment.
            tism and other hiring issues.

                                                                False Statements/Misuse of TVA
            Veterans Preference Act (VPA)
                                                                Resources
            Our investigation did not substantiate an
                                                                We concluded a TVA electrician provided
            allegation that TVA violated the VPA by
                                                                a false statement on a background secu-
            never interviewing an Army veteran in
                                                                rity form, submitted false timesheets and
            spite of his repeated applications for
                                                                per diem claims, used a TVA truck for
            electrician positions. However, we did
                                                                unauthorized purposes, and used a TVA-
            find a weakness in TVA’s practice of list-
                                                                issued fuel credit card to purchase per-
            ing job vacancies on its external web
                                                                sonal items and fuel for non-TVA
            site.
                                                                vehicles. The electrician resigned as a
            Management agreed to (1) revise the                 result of our investigation.
            web site to eliminate any confusion over
                                                                False Statements to TVA Management
            whether advertised positions were avail-
                                                                and the OIG
            able or anticipated, and to ensure VPA
                                                                Our investigation showed a TVA electri-
            information is available; and (2) give the
                                                                cian submitted falsified medical excuses
            complainant appropriate consideration
                                                                and made false statements to TVA man-
            for all vacancies for which he is qualified.
                                                                agement and the OIG regarding medical
            EMPLOYEE MISCONDUCT                                 care he purportedly received.

            Unauthorized E-Mail Access
                                                                After discussions with the employee's

            Our inquiry revealed a TVA employee                 union representatives, TVA placed the

            used a computer keyboard logging                    employee on unpaid leave until he

            device to monitor two employees' e-mail             becomes eligible for retirement in one

            activities. (A keyboard logging device is           year.

            a small "recording" mechanism that
                                                                ENVIRONMENTAL CRIMES JOINT
            attaches to a keyboard cable and cap-               TASK FORCE (ECJTF)
            tures all characters entered on the key-
                                                                We continued our participation in the
            board for subsequent retrieval.)
                                                                ECJTF, which is comprised of members

            The individual used the device to capture           from state and federal agencies.

            the coworkers' user names and pass-                 Highlights of the task force's work

            words. This, in turn, enabled him to                reported during this period include the

            access their e-mail accounts and corre-             following.




TVA / OFFICE OF THE INSPECTOR GENERAL                      15
Guilty Plea and Sentencing––Illegal                Sentencing––Waste-Disposal
Dumping                                            Company and Its President

A Tennessee physician pled guilty to one           During a previous reporting period, a
count of violating the Clean Water Act             Chattanooga company and its president
and was sentenced during this reporting            each pled guilty to one count of violating
period.                                            the Clean Water Act by knowingly falsify-
                                                   ing documentation to the city of
The physician had purchased property
                                                   Chattanooga relating to the company's
bearing an above-ground storage tank
                                                   permit to dispose of nonhazardous
previously used by a paper mill. The
                                                   waste.
tank contained over 500,000 gallons of
"black liquor"––a by-product of paper              On over 40 occasions, the company's
manufacturing––which the individual ille-          discharge monitoring reports to the city
gally caused to be discharged into the             showed the company disposed of cop-
Emory River in Eastern Tennessee.                  per and zinc within the limitations of the
                                                   company's permit when both the com-
Subsequent to his guilty plea, the individ-
                                                   pany and its owner knew the levels in the
ual was sentenced to 2 years' probation
                                                   wastewater discharges exceeded limita-
comprised, in part, of 1 year home
                                                   tions. According to the Environmental
detention, 300 hours’ community serv-
                                                   Protection Agency, the levels of copper
ice, and special conditions including
                                                   in the discharged wastewater were as
remediating the damaged site and plac-
                                                   much as 17 times the federal limit, and
ing advertisements in local newspapers
                                                   the levels of zinc as much as 14 times
apologizing to the public for the environ-
                                                   the limit.
mental violations.
                                                   During this reporting period, the compa-
In addition, he was ordered to pay a
                                                   ny was sentenced to five years' proba-
$10,000 fine and restitution totaling
                                                   tion, and its president was ordered to
almost $35,000 to the Tennessee
                                                   pay a $10,000 fine and to serve one year
Department of Environment and
                                                   of probation, including nine months'
Conservation (TDEC) and $15,000 to
                                                   home detention. The company and its
TVA. He is also to make a $25,000 vol-
                                                   president were jointly sentenced to pay
untary contribution to the Southern
                                                   $250,000 restitution––$100,000 to both
Environmental Enforcement Network
                                                   the city of Chattanooga and TDEC and
(SEEN) training fund. (The SEEN is an
                                                   $50,000 to the SEEN training fund.
association of regulatory and law
enforcement agencies in the Southern
United States.)




                                              16   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
               HEALTH CARE FRAUD TASK FORCE                     obtained controlled substances to

               We continued to support health care              others.

               fraud task forces and working groups
                                                                An area pharmacist was named in a sep-
               sponsored by the United States
                                                                arate indictment for allegedly distributing
               Attorneys’ offices in Tennessee.
                                                                and facilitating the illegal distribution of

               The cases highlighted below reflect our          controlled substances, illegal possession

               involvement in the Eastern District of           of firearms, and obstruction of a criminal

               Tennessee Health Care Fraud Task                 investigation of health care offenses.

               Force. Participants on the task force
                                                                Orthopedic Physician Indicted
               include investigative arms of federal,
                                                                A physician, owner of a Tullahoma,
               state, and local agencies, and Blue
                                                                Tennessee, orthopedic clinic, was indict-
               Cross/Blue Shield's Special
                                                                ed by a federal grand jury on 95 counts
               Investigations Unit.
                                                                of defrauding health care benefits plans,
               Six Indicted on Drug Charges                     including the TVA-funded workers' com-

               A federal indictment against a Sevier            pensation benefits program.

               County, Tennessee, physician charged
                                                                The indictment alleged the physician
               him with 516 counts of unlawfully dis-
                                                                (1) billed benefits plans for a procedure
               pensing and distributing Schedule II con-
                                                                called a "nerve block" when, in fact, a
               trolled substances and various products
                                                                more simple and less expensive proce-
               containing a Schedule III controlled
                                                                dure was performed; and (2) used billing
               substance.
                                                                codes resulting in higher payments for

               The indictment additionally alleged four         the physician than the value of the serv-

               co-defendants (1) illegally obtained and         ices actually provided.

               diverted controlled-substance prescrip-
                                                                According to the indictment, the total
               tions issued by the physician, who
                                                                financial losses incurred as a result of the
               sometimes charged a fee for the bogus
                                                                physician's false representations exceed
               prescriptions; (2) abused the controlled
                                                                $2.2 million.
               substances themselves; and (3) sold or
               otherwise distributed the illegally




TVA / OFFICE OF THE INSPECTOR GENERAL                      17
                Administrative and Disciplinary Actions
                October 1, 1997 ~ September 30, 2002*
                              Total = 291

                                             Oral/Written
                                              Warnings
Reemployment                                    18%                   Suspensions/
   Flagged                                                             Demotions/
     18%                                                                Transfers
                                                                           9%


                                                                          Resignations/
                                                                          Terminations
                                                                               9%


                     Counseling/
                     Management
                     Techniques
                        46%


                   *Prosecutive referrals are shown in Appendix 4.




                                                                    Closed Cases by Area
                                                                 April 1 ~ September 30, 2002
                                                                            Total = 89


                                                                                          Information
                                                                                            Services
                                                         Other                                16%
                                                         19%
                                                                                                        Fossil Power
                                                                                                           30%
                                    River System
                                    Operations &
                                    Environment
                                        11%


                                                    TVA Nuclear
                                                                                      Human
                                                        7%
                                                                                     Resources
                                                                                       17%




      Sources of Hotline Calls Warranting Further OIG Action
                  April 1 ~ September 30, 2002
                             Total = 32




               TVA Employees                                         Former TVA/
                    34%                                               Contractor
                                                                      Employees
                                                                        16%




                 General Public
                     50%




                                                                     18              SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
               We continued to follow issues of interest
               to the OIG and TVA, including proposals
               regarding law enforcement authority and
               utility deregulation.

               During this reporting period, our reviews
               included H.R. 5005, the Homeland
               Security Act, which would provide statu-
               tory law enforcement authority to presi-
               dentially appointed OIGs; the Sarbanes-
               Oxley Act of 2002; and regulations
               issued under the Health Insurance
               Portability and Accountability Act of
               1996. We worked with the PCIE in sub-
               mitting comments on legislative matters
               of interest to the Inspector General
               community.




TVA / OFFICE OF THE INSPECTOR GENERAL                      19
APPENDICES




    20   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
            Index of Reporting Requirements Under the Inspector General Act
            REPORTING REQUIREMENT                                                                                   PAGE



            Section 4(a)(2)   Review of Legislation and Regulations                                                     19


            Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                          6-18


            Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies          6-18


            Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                              Corrective Action Has Not Been Completed                                           Appendix 5


            Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                              That Have Resulted                                                                 Appendix 4


            Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
            and 6(b)(2)


            Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


            Section 5(a)(7)   Summary of Particularly Significant Reports                                             8-18


            Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


            Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                              That Funds Be Put to Better Use                                                    Appendix 3


            Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                             Reporting Period                                                                         None


            Section 5(a)(11) Significant Revised Management Decisions                                                 None


            Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None




TVA / OFFICE OF THE INSPECTOR GENERAL                                       21
Audit Reports Issued
AUDIT REPORT
NUMBER                                             QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                   COSTS       COSTS     BETTER USE

CONTRACT

2001-048C
04/30/2002     Indus International, Inc.                $66,978                $31,934

2001-051C
04/30/2002     Piping and Equipment Company

2001-087C
04/30/2002     Canberra Industries                      331,557

2002-041V
05/02/2002     The Babcock & Wilcox Company -
               Preaward Audit                                                                 $235,000

2002-009E
05/15/2002     Voith Siemens Hydro -
               Preaward Audit                                                                5,040,000

2002-044C
05/17/2002     EMC Corporation

2002-052V
05/23/2002     Neill & Gunter - Rate Review -
               Preaward Audit                           119,000                                301,200

2002-032C
06/25/2002     PS Energy Group, Inc.                    120,401

2002-048C-01
06/25/2002     Pinkerton Government Services, Inc. -
               Contract No. 98NNX-224696                203,800

2002-049C
06/25/2002     BOC Gases- Preaward Audit                                                       180,000

2002-060V
07/03/2002     Stone & Webster, Inc. -
               Preaward Audit                                                               13,000,000

2002-055V
07/08/2002     Pinkerton Government Services, Inc. -
               Preaward Audit

2002-053V
07/11/2002     Wackenhut Services, Inc. -
               Preaward Audit

2002-056V
07/16/2002     Sargent & Lundy Engineers -
               Preaward Audit                                                               17,900,000

2002-042V
07/18/2002     Immix Technology - Contract
               P-01BYS-267832-000                           70,750               3,849

2002-004C-01
07/24/2002     Electric Power Research Institute            32,145




                                                       22            SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
            Audit Reports Issued
            AUDIT REPORT
            NUMBER                                                  QUESTIONED   UNSUPPORTED FUNDS PUT TO
            AND DATE     TITLE                                        COSTS         COSTS     BETTER USE

            CONTRACT (continued)

            2002-054C
            08/06/2002     TRC Garrow Associates, Inc.

            2002-064V
            08/27/2002     Mesa Associates, Inc. -
                           Preaward Audit                                                       $2,367,000

            2002-088C
            09/06/2002     Tombras Group -
                           Preaward Audit

            2002-089C
            09/06/2002     The Johnson Group - Preaward Audit

            1998-071C
            09/10/2002     Enterprise Sales, Inc.

            2002-069V
            09/16/2002     Sargent & Lundy -
                           Preaward Audit                                                        6,200,000

            2002-066C
            09/24/2002     Review of General Electric Field Labor
                           Cost Adjustment for Lagoon Creek II
                           and Kemper County -
                           Contract P98P6D-195379                     $26,305        $26,305

            2002-061V
            09/26/2002     Bechtel Power Company -
                           Preaward Audit                                                        6,814,000

            2002-072C
            09/27/2002     Thomas & Betts Company

            FINANCIAL
            2002-016C
            07/24/2002     Review of TVA's Special Financing
                           Arrangements

            2002-067V
            07/26/2002     Review of Facilities' Nashville Office
                           Space Cost Assessment

            2002-034C
            07/31/2002     Review of Miscellaneous Cash
                           Receipts




TVA / OFFICE OF THE INSPECTOR GENERAL                                23
Audit Reports Issued
AUDIT REPORT
NUMBER                                                     QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                           COSTS       COSTS     BETTER USE

INFORMATION TECHNOLOGY
2002-017T
06/25/2002          Hydro Automation - Dams

2002-013T
07/24/2002          Customer Portal Control Assessment

2002-025T
08/07/2002          Security of Windows 2000/
                    Windows XP

2002-086C
09/12/2002          Government Information Security
                    Reform Act

2002-051T
09/27/2002          IT Store

OPERATIONAL
2002-021V
04/08/2002          Survey of Information Services
                    Personnel Who Directly Support
                    TVA Nuclear

2001-065P
04/18/2002          Control and Accountability Over
                    Weapons at TVA

2002-008E
07/18/2002          Review of Internal Controls in Long-
                    Term Bulk Power Trading

2002-063E
07/19/2002          Review of Data for Long-Term Bulk
                    Power Trading Decisions

2002-020C
07/23/2002          Review of TVA's Safety Program

2000-030P
08/13/2002          Review of TVA's Active Employee
                    Medical Plan Eligibility                $2,844,928

2001-091P
09/05/2002          Review of Capital Project Results


TOTAL               40                                     $3,815,864               $62,088         $52,037,200*


* This figure includes funds identified in preaward audits of proposals for contracts that may not be awarded.




                                                            24           SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
            Audit Reports Issued With Questioned Costs
                                                                                                      QUESTIONED COSTS
                                                                              NUMBER                TOTAL    UNSUPPORTED




            A.   For which no management decision has been
                 made by the commencement of the reporting period                 0                         $0                   $0

            B.   Which were issued during the reporting period                    9                $3,815,864              $62,088

            Subtotals of A and B                                                 9               $3,815,864               $62,088

            C.   For which a management decision was made during
                 the reporting period                                             9*               $3,815,864              $62,088

                 (i) Dollar value of disallowed costs                             8                 $911,436               $62,088

                 (ii) Dollar value of costs not disallowed                        2                $2,904,428                    $0

            D.   For which no management decision has been made by
                 the end of the reporting period                                  0                         $0                   $0

            E.   For which no management decision was made within
                 six months of issuance                                           0                         $0                   $0


            * The total number of reports differs from the sum of C.(i) and C.(ii) when the same reports contain both costs disal-
              lowed and not disallowed by management.




TVA / OFFICE OF THE INSPECTOR GENERAL                                    25
Audit Reports Issued With Recommendations for Better Use of Funds
                                                                 NUMBER          DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period                4              $25,027,000

B.   Which were issued during the reporting period                   9              $52,037,200

Subtotals of A and B                                                13             $77,064,200

C.   For which a management decision was made during
     the reporting period                                           11              $68,497,200

     (i) Dollar value of disallowed costs                            8              $44,944,200

     (ii) Dollar value of costs not disallowed                       3              $23,553,000

D.   For which no management decision has been made by
     the end of the reporting period                                 2               $8,567,000

E.   For which no management decision was made within
     six months of issuance                                          0                      $0




                                                        26   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
            Investigative Referrals and Prosecutive Results


            Referrals

                      Subjects Referred to United States Attorneys                                     19
                      Subjects Referred to Other Agencies for Investigative or Administrative Action   2


            Results

                      Subjects Indicted                                                                9
                      Subjects Convicted                                                               4
                      Referrals Declined                                                               17


                      (No OWCP actions to report this period.)




TVA / OFFICE OF THE INSPECTOR GENERAL                                    27
Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE            DESCRIPTION




2000-012P
January 9, 2002     This report included recommendations to clarify several provisions in TVA's Affirmative
                    Procurement Plan and to ensure documentation is maintained to support waivers from the
                    revised plan. TVA is currently revising its Affirmative Procurement Plan and implementing other
                    planned actions.

2000-026C-01
April 2, 2001       This report contained a recommendation to implement electronic data processing to collect
                    hours and rates billed for staff augmentation services and evaluate systems to determine how to
                    best meet these data processing needs. Representatives from several TVA organizations are
                    reviewing automated tools, and a business case, including cost benefit analysis, will be present-
                    ed to TVA management for a decision.

2001-032F
November 7, 2001    This report included recommendations to institute an updated land management business prac-
                    tice and revise, update, and/or integrate processes and systems to facilitate better communica-
                    tion among TVA organizations. TVA management has initiated, but not completed, action
                    addressing these recommendations.

2001-052T
November 26, 2001   This report contained a recommendation to develop an agency-wide business practice on elec-
                    tronic business. TVA is implementing the recommendation.

2001-060P
October 22, 2001    This report contained recommendations to review storeroom access at TVA fossil plants and
                    revoke unneeded access and to consider adding storeroom staff at two fossil plants.
                    Management completed final action in October 2002.

2001-064T
December 21, 2001   This report included recommendations to upgrade firewall hardware and software, upgrade
                    server and operating system security, and develop and implement policies and procedures to
                    address access authorization, intrusion detection, program change control, and contingency
                    planning and disaster recovery. Actions to strengthen the firewall are complete. Actions to
                    address the remaining recommendations will be completed by December 21, 2002.

2001-074T
January 7, 2002     This report contained recommendations regarding TVA’s access control system for non-nuclear
                    facilities. TVA is now accepting proposals to replace or modify this system.

2002-024V
February 13, 2002   This report contained a suggestion about the contractor's markup for indirect costs and profit
                    and suggestions to improve TVA's audit rights under the potential contract. TVA is addressing
                    the suggestions in continuing negotiations; however, those negotiations have not been complet-
                    ed.




                                                     28           SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2002
                                                          SEPT 30,         MAR 31,        SEPT 30,         MAR 31,         SEPT 30,
                                                            2002            2002            2001            2001             2000

            ANNUAL BUDGET (In Millions of Dollars)            8.0 *           8.0*            8.6             8.6             7.2
            CURRENT STAFFING                                   87              86              86              74              77

            AUDITS & SPECIAL PROJECTS

            AUDITS IN PROGRESS
            Carried Forward                                   33               38              45              43              48
            Started                                           44               43              44              52              38
            Canceled                                           (4)              (8)             (4)             (7)             (8)
            Completed                                        (40)             (40)            (47)            (43)            (35)
            In Progress at End of Reporting Period            33               33              38              45              43

            AUDIT RESULTS (Thousands)
            Questioned Costs                              $3,816          $1,780          $3,519          $2,613          $1,800
            Disallowed by TVA                                911             267           1,236           3,010             379
            Recovered by TVA                                 387             225           1,634             821             390

            Funds to Be Put to Better Use                $52,037         $31,874         $10,401         $70,422         $12,862
            Agreed to by TVA                              44,944           6,069          10,155          37,450          12,499
            Realized by TVA                               16,014           6,090           8,277          30,918          17,340

            NONAUDIT SERVICES (Thousands)
            Completed                                          16               12               0             13              8
            Cost Savings Identified/Realized                    0                0               0              0           $233

            INVESTIGATIONS

            INVESTIGATION CASELOAD
            Opened                                            78              93              94               86             132
            Closed                                            89             114             120               83              99
            In Progress at End of Reporting Period           115             126             147              173             170

            INVESTIGATIVE RESULTS (Thousands)
            Recoveries                                      $961            $233          $6,527            $214            $179
            Savings                                            8           1,175             542             532             521
            Fines/Penalties                                   86             0.1             105             250              11

            ADMINISTRATIVE AND
            DISCIPLINARY ACTIONS
            Recommended (# of Cases)                           18               22             13              14              13
            Actions Taken (# of Subjects)                       7                6              8              30              11
            Counseling/Management
              Techniques Employed (# of Cases)                 24               15               3              9                6

            PROSECUTIVE ACTIVITIES (# of Subjects)
            Referred                                           19                5             13               7              32
            Indicted                                            9                5              5              19               5
            Convicted                                           4                3              7              14               5

            * An additional $1.6 million in benefits is being covered in fiscal year 2002 as a corporate rather than an organizational
              expense as was done in the past.




TVA / OFFICE OF THE INSPECTOR GENERAL                                      29
                 The OIG Vision:
         . . . illuminating today’s challenges
             and tomorrow’s solutions . . .




OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                  KNOXVILLE, TENNESSEE 37902-1401
